Audit
Report
       PROMPTNESS OF FY 2002 SECOND QUARTER DOD
     PAYMENTS TO THE U.S. TREASURY FOR DISTRICT OF
          COLUMBIA WATER AND SEWER SERVICES


Report No. D-2002-040                 January 15, 2002



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS         Defense Finance and Accounting Service
WASA         Water and Sewer Authority
                       Office of the Inspector General, DoD
Report No. D2002-040                                                  January 15, 2002
  (Project No. D2001FA-0154.002)


      Promptness of FY 2002 Second Quarter DoD Payments to the
          U.S. Treasury for District of Columbia Water and
                           Sewer Services

                                   Executive Summary

Introduction. This report covers FY 2002 second quarter payments and is one in a
series of reports discussing the promptness and completeness of DoD payments to the
U.S. Treasury for District of Columbia water and sewer services. Public
Law 106-554, the Consolidated Appropriations Act of 2001, requires the inspector
general of each Federal agency to audit the agency’s promptness in paying the District
of Columbia for water and sewer services. The audit reports must be submitted to the
House and Senate Appropriations Committees within 15 days of the start of each
quarter.

The District of Columbia Water and Sewer Authority supplies both water and sewer
services to Federal agencies and DoD Components within the National Capital Region.
The U.S. Treasury is the collection agent for Federal agencies and DoD Components’
water and sewer payments, with the U.S. Treasury submitting a single payment to the
Water and Sewer Authority. The DoD Components, composed of 17 separate
installations, sites, and organizations, are required to make advance quarterly payments
to the U.S. Treasury for estimated bills on anticipated water usage in FY 2002.

Objective. The audit objective was to determine the promptness of FY 2002 second
quarter DoD payments to the U.S. Treasury for District of Columbia water and sewer
services.

Results. DoD Components instructed the Defense Finance and Accounting Service to
make second quarter FY 2002 payments to the U.S. Treasury for District of Columbia
water and sewer services by January 2, 2002. The Defense Finance and Accounting
Service initiated action to make payments on the instructed date; however, the U.S.
Treasury withdrew $1 million available to Army and Defense Components on the same
day to pay the District of Columbia. The U.S. Treasury did not withdraw payments
from the Navy and Air Force Components because of credit balances from prior
overpayments, or from Arlington National Cemetery’s appropriation because of Public
Law 107-20. Army officials dispute the appropriateness of $77,000 that the
U.S. Treasury withdrew for second quarter FY 2002 water and sewer services for Fort
Myer, because Fort Myer discontinued receiving water services from the District of
Columbia in 1999.

Management Comments. We provided a draft report on January 9, 2002. No written
response to this report was required and none was received. Therefore, we are
publishing this report in final form.




                                         ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objective                                                      2

Finding
     DoD FY 2002 Second Quarter Payments to the U.S. Treasury       3

Appendixes
     A. Audit Process
          Scope and Methodology                                     5
          Prior Coverage                                            5
     B. DoD Customers of the District of Columbia Water and Sewer
        Authority                                                   7
     C. Report Distribution                                         8
Background
    This audit was required by Public Law 106-554, the Consolidated
    Appropriations Act of 2001. Public Law 106-554 requires the inspector general
    of each Federal agency that receives water and sewer services from the District
    of Columbia to report to the Congressional Appropriations Committees on the
    promptness of payments within 15 days of the start of each quarter. This report
    covers FY 2002 second quarter payments and is one in a series of reports
    discussing the promptness and completeness of DoD payments to the U.S.
    Treasury for District of Columbia water and sewer services.

    The District of Columbia Water and Sewer Authority. The District of
    Columbia supplies both water and sewer services to Federal agencies and
    DoD Components within the National Capital Region. Since October 1996, the
    District of Columbia Water and Sewer Authority (WASA) has been responsible
    for delivery of water and sewer services to DoD Components. WASA provides
    meter readings and annual estimated billings to the U.S. Treasury for water and
    sewer services provided to the Federal agencies, including DoD Components.

    U.S. Treasury Responsibility. Under the District of Columbia Public Works
    Act of 1954, the Federal Government was to receive water and sewer services
    from the District of Columbia, and the District of Columbia was paid with an
    annual lump sum in accordance with the District of Columbia Appropriations
    Act. The District of Columbia Appropriations Act of 1990 (Public Law 101-
    168) changed the payment process by designating the U.S. Treasury as the
    collection agent for the Federal agencies’ water and sewer payments, with the
    U.S. Treasury remitting a single payment to the District of Columbia. Public
    Law 106-554 amends the process used by the Federal agencies to make
    payments to the U.S. Treasury. The U.S. Treasury is now authorized and
    directed to automatically withdraw funds from Federal agencies and provide
    those funds to WASA by the second day of each quarter when agencies do not
    forward timely payments of amounts billed by WASA. The U.S. Treasury bills
    Federal agencies and DoD Components annually for their estimated water and
    sewer usage and makes quarterly payments to WASA based on meter readings
    and estimates provided by WASA. The DoD Components are required to make
    quarterly payments to the U.S. Treasury for those annual estimated bills. See
    Appendix B for a list of DoD components, composed of 17 separate
    installations, sites, and organizations, that received WASA services.

    Public Law 107-20. Public Law 107-20, the Supplemental Appropriations Act
    of 2001, removes the authority of the U.S. Treasury to withdraw funds from
    Arlington National Cemetery (Cemetery) for payment to the District of
    Columbia for water and sewer services. The law requires that DoD pay the
    difference between the amount the Cemetery previously paid for estimated water
    bills and the actual amount billed to the Cemetery. Furthermore, the law
    requires that for FY 2002 and future years, the Cemetery’s water and sewer
    bills be based on metering on the grounds of the Cemetery. The law also directs
    the U.S. Treasury to reimburse the Cemetery for previous withdrawals with
    funds taken from other DoD appropriation accounts.




                                       1
    Federal Agencies Responsibility. Public Law 101-168 mandates responsibility
    to the respective Federal agencies for payment of water and sewer services.
    The funds for the services come through the agencies’ operating budgets and
    their respective appropriations bills. Each quarterly payment is due to the U.S.
    Treasury account, “Federal Payment for Water and Sewer Services,” on the
    first day of the quarter. DoD Components make their payments to the
    U.S. Treasury through the Defense Finance and Accounting Service (DFAS).

    DFAS Responsibilities. DFAS provides finance and accounting services, to
    include making bill payments, to DoD Components and other Federal agencies.
    Specifically, DFAS-Indianapolis Center provides financial services to the Army,
    DFAS-Cleveland Center provides those same services to the Navy, and DFAS-
    Omaha Operating Location provides financial services to the Air Force. The
    DoD Components submit requests for payments of water and sewer services to
    the appropriate DFAS location, and DFAS pays the U.S. Treasury either by
    check or electronic transfer in the amount indicated on the request.

Objective
    The audit objective was to determine the promptness of DoD FY 2002 second
    quarter payments to the U.S. Treasury for District of Columbia water and sewer
    services. See Appendix A for a discussion of the audit scope and methodology
    and prior coverage related to audit objectives.




                                        2
          DoD FY 2002 Second Quarter Payments to
          the U.S. Treasury
          DoD Components instructed DFAS to make second quarter FY 2002
          payments to the U.S. Treasury for District of Columbia water and sewer
          services by January 2, 2002. DFAS initiated action to make payments
          on the instructed date; however, the U.S. Treasury withdrew $1 million
          available to Army and Defense Components on the same day to pay the
          District of Columbia. The U.S. Treasury did not withdraw payments
          from the Navy and Air Force Components because of credit balances
          from prior overpayments, or from Arlington National Cemetery’s
          appropriation because of Public Law 107-20. Army officials dispute the
          appropriateness of $77,000 that the U.S. Treasury withdrew for second
          quarter FY 2002 water and sewer services for Fort Myer, because Fort
          Myer discontinued receiving water services from the District of
          Columbia in 1999.




Promptness of FY 2002 Second Quarter DoD Payments
    DoD Components, except for Fort Myer and Arlington National Cemetery,
    attempted to make prompt payments of their District of Columbia water and
    sewer bills for the second quarter of FY 2002 by obligating the funds for
    payment and instructing DFAS to make second quarter FY 2002 payments for
    the water and sewer services by January 2, 2002. However, DFAS did not
    make the payments by January 2, 2002, and the U.S. Treasury withdrew
    $1 million available to Army and Defense Components on the same day to pay
    the District of Columbia. The U.S. Treasury did not withdraw funds for
    Arlington National Cemetery’s bill. The Cemetery did not make FY 2002 first
    and second quarter payments for water and sewer services. The Cemetery plans
    to pay $80,000 for its FY 2002 estimated water and sewer bill. Further
    payments from the Cemetery will be based on actual water and sewer usage. As
    shown in the following table, DoD Components were billed $2.1 million, and
    the U.S. Treasury withdrew $1 million for the FY 2002 second quarter
    payment.




                                      3
                         DoD Components’ FY 2002 Second Quarter Bills and Payments
                                          (As of January 2, 2002)
                                                       Amount Billed           Credits from Overpayments           Amount Withdrawn
                                                        (thousands)                    (thousands)                   (thousands)

 Pentagon                                                 $ 343                             $       0                    $ 343
 Arlington National Cemetery                                   89                                   0                            0
                1
 Fort Myer                                                     77                                   0                            77
 Walter Reed Army Medical Center                             382                                    0                           382
                    2
 Fort McNair                                                   6 3
                                                                                                    0                             0
          4,5
 Navy                                                        634                             (1,028)                              0
                              6
 Bolling Air Force Base                                      409                                (580)                             0
 National Imagery and Mapping Agency                         205                                    0                           205
        Total                                             $2,145                            $(1,608)                     $1,007
 1
     Fort Myer discontinued water services in January 1999. Fort Myer receives and pays for water services provided by Arlington
     County, Virginia
 2
     Includes Fort McNair, National War College, and National Defense University Center
 3
     Fort McNair paid $24,000 for the FY 2002 bill in the first quarter ($6,000 per quarter) and thus is not required to make
     quarterly payments
 4
     Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory, Marine Corps Barracks (8th & I), Naval
     Research Laboratory, Nebraska Avenue Annex, Potomac Annex, and Washington Navy Yard
 5
     Estimated amount billed for FY 2002 was $2.5 million ($634,000 represents the quarterly amount billed); a credit adjustment of
     $4.1 million ($1,028,000 represents the quarterly credit) for FY 1999 overpayments
 6
     Estimated amount billed for FY 2002 was $1.6 million ($409,000 represents the quarterly amount billed); a credit adjustment of
     $2.3 million ($580,000 represents the quarterly credit) for FY 1999 overpayments




Water and Sewer Bill for Fort Myer
          The U.S. Treasury withdrew $77,000 for water and sewer services billed by the
          District of Columbia to Fort Myer. Army officials at Fort Myer believe that the
          bill should not be paid because in January of 1999 (FY 1999), Fort Myer
          discontinued water services with WASA after one quarter of usage. The Army
          previously paid $185,000 for FY 1999 estimated water usage for Fort Myer.
          As a result, Army officials contend that the $185,000 paid on the FY 1999
          estimated water usage for Fort Myer should be sufficient. Since Public Law
          101-168 does not provide a mechanism to resolve billing disputes between
          WASA and Federal Agencies or between Federal Agencies and the U.S.
          Treasury, the Army will continue to work with the U.S. Treasury and WASA to
          resolve all outstanding issues regarding Fort Myer.




                                                                4
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed DoD Component billing and payment
    information for the second quarter of FY 2002 for District of Columbia water
    and sewer services. Specifically, we reviewed bills received by
    DoD Components from the U.S. Treasury to establish the amounts billed for
    water and sewer services. We contacted the Defense Finance and Accounting
    Service to verify that payment was initiated. We also contacted the U.S
    Treasury to confirm that funds available to DoD Components were withdrawn to
    pay the District of Columbia for FY 2002 second quarter water and sewer bills.
    See Appendix B for a list of the DoD Components that received water and sewer
    services from WASA.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management high-risk area.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data for our review of billing and payment data for water and sewer services
    provided to DoD Components by the District of Columbia.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from December 2001 through January 8, 2002, in accordance with generally
    accepted government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD, the Defense Finance and Accounting Service,
    and the U.S. Treasury. Further details are available upon request.

Prior Coverage
    Inspector General, DoD
    Inspector General, DoD, Report No. D-2002-007, “Promptness of FY 2002
    First Quarter DoD Payments to the U.S. Treasury for District of Columbia
    Water and Sewer Services,” October 15, 2001

    Inspector General, DoD, Report No. D-2001-159, “Promptness and
    Completeness of FY 2001 Fourth Quarter DoD Payments to the U.S. Treasury
    for Water and Sewer Services Provided by the District of Columbia,”
    July 13, 2001




                                       5
Inspector General, DoD, Report No. D-2001-100, “Promptness and
Completeness of FYs 2000 and 2001 DoD Payments to the U.S. Treasury for
Water and Sewer Services Provided by the District of Columbia,”
April 13, 2001

Inspector General, DoD, Report No. D-2001-053, “DoD Payments to the U.S.
Treasury for Water and Sewer Services Provided by the District of Columbia,”
February 15, 2001




                                  6
Appendix B. DoD Customers of the District of
Columbia Water and Sewer Authority
According to the District of Columbia Water and Sewer Authority, the list below
identifies the 17 DoD Components for which the Water and Sewer Authority provides
estimated bills to the U.S. Treasury for water and sewer services for FY 2002.


      Army
       Arlington Cemetery
       Fort McNair
       Fort Myer
       Walter Reed Army Medical Center

      Navy
       Anacostia Naval Station
       Bellevue Naval Housing
       Marine Corps Barracks, 8th & I
       Naval Observatory
       Naval Research Laboratory
       Nebraska Avenue Annex
       Potomac Annex
       Washington Navy Yard

      Air Force
       Bolling Air Force Base

      Other Defense Organizations
       National Defense University Center
       National Imagery and Mapping Agency
       National War College
       Washington Headquarters Services




                                         7
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Commander, Fort Myer
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Defense Organizations
Director, Defense Finance and Accounting Service
Director, National Imagery and Mapping Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of the Treasury




                                           8
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          9
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Garold E. Stephenson
Richard B. Jolliffe
Henry F. Kleinknecht
Ronald W. Hodges
Pauletta P. Battle
